APPENDIX

TABLE OF APPENDICES
Appendix A
Order Denying Application to Transfer,
Supreme Court of Missouri, St. Louis
Reg’l Convention & Sports Complex Auth.
v. Rams Football Co., LLC, No. SC97929
(Sept. 3, 2019) .............................................. App-1
Appendix B
Order Denying Application to Transfer,
Missouri Court of Appeals, Eastern
District, St. Louis Reg’l Convention &
Sports Complex Auth. v. Rams Football
Co., LLC, No. ED106282-01 (May 20,
2019)............................................................. App-3
Appendix C
Opinion, Missouri Court of Appeals,
Eastern District, St. Louis Reg’l
Convention & Sports Complex Auth. v.
Rams Football Co., LLC, No. ED10628201 (Apr. 16, 2019) ........................................ App-5
Appendix D
Order
Sustaining
Application
to
Transfer, Supreme Court of Missouri,
St. Louis Reg’l Convention & Sports
Complex Auth. v. Rams Football Co.,
LLC, No. SC97488 (Jan. 29, 2019)............ App-26

ii
Appendix E
Opinion on Application for Transfer,
Missouri Court of Appeals, Eastern
District, St. Louis Reg’l Convention &
Sports Complex Auth. v. Rams Football
Co., LLC, No. ED106282 (Oct. 2, 2018) .... App-28
Appendix F
Opinion Denying Motion to Compel
Arbitration, Missouri Court of Appeals,
Eastern District, St. Louis Reg’l
Convention & Sports Complex Auth. v.
Rams Football Co., LLC, No. ED106282
(Aug. 21, 2018) ........................................... App-31
Appendix G
Opinion Denying Motion to Compel
Arbitration of All Counts, Missouri
Circuit Court, St. Louis Reg’l Convention
& Sports Complex Auth. v. Rams Football
Co., LLC, No. 1722-CC00976 (Dec. 27,
2017)........................................................... App-48
Appendix H
Relevant Constitutional and Statutory
Provisions................................................... App-54
U.S. Const. art. VI, cl. 2 ...................... App-54
9 U.S.C. §2 ........................................... App-54

App-1
Appendix A
SUPREME COURT OF MISSOURI
EN BANC
________________
No. SC97929
________________
ST. LOUIS REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,
v.

Respondents,

NATIONAL FOOTBALL LEAGUE, et al.,
and

Defendants,

THE RAMS FOOTBALL COMPANY, LLC and
E. STANLEY KROENKE,
Appellants.
________________
Filed: Sept. 3, 2019
________________
ORDER
________________
Now at this day, on consideration of the
Appellants’ application to transfer the above-entitled
cause from the Missouri Court of Appeals, Eastern
District, it is ordered that the said application be, and
the same is hereby denied.
STATE OF MISSOURI-Sct.
I, Betsy AuBuchon, Clerk of the Supreme Court of
the State of Missouri, certify that the foregoing is a

App-2
full, true and complete transcript of the judgment of
said Supreme Court, entered of record at the
September Session, 2019, and on the 3rd day of
September, 2019, in the above-entitled cause.
IN TESTIMONY WHEREOF, I have hereunto set
my hand and the seal of said Court, at my office in the
City of Jefferson, this 3rd day of September, 2019.
[handwritten: signature], Clerk
[handwritten: signature], Deputy
Clerk

App-3
Appendix B
MISSOURI COURT OF APPEALS
EASTERN DISTRICT
________________
No. ED106282-01
________________
ST. LOUIS REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,
v.

Respondents,

NATIONAL FOOTBALL LEAGUE, et al.,
and

Defendants,

THE RAMS FOOTBALL COMPANY, LLC and
E. STANLEY KROENKE,
Appellants.
________________
Filed: May 20, 2019
________________
ORDER
________________
Appellant’s Application for Transfer to Missouri
Supreme Court is denied.
SO ORDERED.

App-4
DATED: [handwritten: 5/20/2019]
[handwritten: signature]
Chief Judge
Missouri Court of Appeals
Eastern District

App-5
Appendix C
MISSOURI COURT OF APPEALS
EASTERN DISTRICT
________________
No. ED106282-01
________________
ST. LOUIS REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,
v.

Respondents,

NATIONAL FOOTBALL LEAGUE, et al, and THE RAMS
FOOTBALL COMPANY, LLC and
E. STANLEY KROENKE,
Appellants.
________________
Filed: April 16, 2019
________________
OPINION
________________
Introduction
The St. Louis Regional Convention and Sports
Complex Authority (the “RSA”), the City of St. Louis
(the “City”), and St. Louis County (the “County”)
(collectively “Plaintiffs”) sued The Rams Football
Company, LLC (“Rams”), the National Football
League (“NFL”), through its thirty-two member clubs,
and the clubs’ owners, including E. Stanley Kroenke
(“Kroenke”),
the
Rams’
owner
(collectively
“Defendants”), alleging five counts arising out of the
Rams’ 2016 relocation from St. Louis to Los Angeles.

App-6
Plaintiffs sued based on their alleged status as thirdparty beneficiaries of the NFL’s “Policy and
Procedures for Proposed Franchise Relocations” (the
“NFL Policy”). The Rams and Kroenke moved to
compel arbitration, arguing the “NFL Franchise
Relocation Agreement” (the “1995 Relocation
Agreement”) and the “Amended and Restated St.
Louis NFL Lease” (the “1995 Lease”) entered in 1995
when the Rams relocated from the Los Angeles market
to St. Louis compelled arbitration because those
contracts contain mandatory arbitration provisions
and Plaintiffs’ claims “touch matters” covered by those
contracts. The trial court denied the Rams and
Kroenke’s motion to compel.
The Rams and Kroenke (“Appellants”) appeal that
decision. On Point I, Appellants argue the American
Arbitration Association Rule 7(a) had been
incorporated by reference into the contract’s
arbitration clause by “the most applicable then
existing rules of the American Arbitration
Association,” provided “clear and unmistakable”
evidence of the parties’ contractual intent in 1995 to
delegate exclusive jurisdiction to an arbitrator to
determine arbitrability of this dispute. On Point II,
Appellants contend Plaintiffs and Appellants’ dispute
touches matters covered by the 1995 Lease and 1995
Relocation Agreement containing mandatory broad
arbitration clauses and therefore Plaintiffs’ claims
must be arbitrated. On Point III, Appellants contend
Kroenke, an agent of the Rams, may invoke the
arbitration provisions in the 1995 Lease and 1995
Relocation Agreement because an agent of a signatory
to an arbitration clause may invoke arbitration
against another signatory.

App-7
Because we conclude an AAA arbitration rule first
appearing in 2003 could not provide “clear and
unmistakable” evidence of the parties’ affirmative
contractual intent in 1995 for an arbitrator to have
exclusive jurisdiction to decide arbitrability as
required under State ex rel. Pinkerton v. Fahnestock,
531 S.W.3d 36, 42 (Mo. banc 2017), and because we
find there is no arbitration agreement applicable to
Plaintiffs’ claims, we affirm.
Factual and Procedural Background
A. The NFL Constitution and Bylaws
Article 4.3 of the NFL Constitution and Bylaws
requires an affirmative vote of three-fourths of its
member clubs before a club may transfer its franchise
or playing site to a different city. Article 4.3 confirms
that each club’s primary obligation to the NFL and to
all other member clubs is to advance the interests of
the NFL in its home city. Article 4.3 also confirms that
no club has an “entitlement” to relocate simply
because it perceives an opportunity for enhanced club
revenues in another location. Relocation under Article
4.3 may be available, however, if a club’s viability in
its home city is threatened by circumstances that
cannot be remedied by diligent efforts of the club
working with the NFL, or if compelling NFL interests
warrant a franchise relocation.
B. The NFL’s Relocation Policy
In 1984, under the NFL Constitution and Bylaws,
the NFL adopted the NFL Policy. The NFL Policy sets
forth the policies and procedures that apply to any
proposed transfer of a club’s home territory. The NFL
Policy states that because the NFL favors stable teamcommunity relations, clubs are obligated to work

App-8
diligently and in good faith to obtain and to maintain
suitable stadium facilities in their home city, and to
operate in a manner that maximizes fan support in
their current home community.
The NFL Policy requires a club to submit a
proposal for transfer to the NFL before it may transfer
its franchise or playing site outside its current home
city. The club must give the Commissioner of the NFL
written notice of its proposed transfer and a
“statement of reasons” to support the proposed
transfer. The NFL Policy provides that the
Commissioner will evaluate the proposed transfer and
report to the members. Following the Commissioner’s
report, the proposal is presented to the members for a
vote. In considering a proposed relocation, the clubs
may consider several factors, but must address the
degree to which the club has engaged in good faith
negotiations, and enlisted the NFL to assist in such
negotiations, with persons about terms and conditions
under which the club would remain in its current
home city and afforded that community a reasonable
amount of time to address proposals.
The NFL Policy states that if a club’s proposal to
relocate to a new home territory is approved, the
relocating club will ordinarily be expected to pay a
transfer fee to the NFL. The transfer fee will
compensate other member clubs of the NFL for losing
the opportunity appropriated by the relocating club
and the enhancement in the value of the franchise
resulting from the move. The NFL Policy has no
arbitration provision.

App-9
C. The Rams’ 1995 Relocation From the Los
Angeles Market to St. Louis
In 1995, the Rams submitted a proposal to
relocate their home playing site from Anaheim to St.
Louis. Upon NFL approval, the Rams relocated to St.
Louis effective with the 1995 NFL season. As a part of
that relocation, the Rams, the Regional Convention
and Visitors Commission (“CVC”), and the St. Louis
NFL Corporation (“SLNFL”) entered into the 1995
Lease. Section 25 of the 1995 Lease contained an
arbitration provision stating:
Any controversy, dispute or claim between or
among any of the parties hereto (and/or any
of those consenting hereto pursuant to the
Consents to Assignment (other than the City,
County or SLMFC, which may only bring an
action or against which an action may only be
brought in United States Federal District
Court for the Eastern District of Missouri,
with the right to jury waived)) to this
Amended Lease, related to this Amended
Lease, including, without limitation, any
claim arising out of, in connection with, or in
relation to the interpretation, performance or
breach of this Amended Lease (including any
determination of whether the “First Tier” or
“First Class” standard provided in Section 1.3
of Annex 1 to this Amended Lease has been
met) shall be settled by arbitration conducted
before three arbitrators in St. Louis,
Missouri, in accordance with the most
applicable then existing rules of the American
Arbitration Association (or its successor or in

App-10
the absence of a successor, an institution or
organization offering similar services), and
judgment upon any award rendered by the
arbitrator may be entered by any federal or
state court having jurisdiction thereof. Such
arbitration shall be the exclusive dispute
resolution mechanism. . . .
The Rams, the CVC, the RSA, Fans, Inc., and the
SLNFL also entered into the 1995 Relocation
Agreement. 1 The 1995 Relocation Agreement
contained an arbitration provision stating:
Any controversy, dispute or claim between or
among any of the parties hereto related to
this Relocation Agreement, including without
limitation, any claim arising out of, in
connection with, or in relation to the
interpretation, performance or breach of this
Relocation Agreement shall be settled by
arbitration as set forth or as otherwise
provided in Section 25 or the Amended Lease.
D.

The Rams’ 2016 Relocation From St.
Louis to Los Angeles

In January 2016, the Rams submitted a proposed
relocation application to relocate from St. Louis to Los
Angeles and a statement of reasons in support to the
NFL. On January 12, 2016, the club owners voted to
allow the relocation of the Rams from St. Louis to Los

1 The City and County are listed as “Sponsors” of the 1995
Lease and the 1995 Relocation Agreement. The parties have not
raised any issue about whether the City and County’s status as
“Sponsors” made them parties to those contracts.

App-11
Angeles. 2 The Rams terminated the 1995 Lease and
relocated to Los Angeles effective with the 2017 NFL
season.
E. Plaintiffs’ Suit
Plaintiffs filed this suit as result of the Rams’
2016 relocation. Plaintiffs alleged Defendants violated
the obligations and standards governing team
relocations by seeking and approving the relocation of
the Rams from St. Louis to Los Angeles, despite
Defendants’ failure to satisfy the obligations imposed
by the NFL Policy. Plaintiffs alleged that in reliance
on Defendants’ obligations imposed by the NFL Policy
they took action to develop and finance a new stadium
complex to keep the Rams in St. Louis. The suit alleges
five counts: (1) breach of contract, specifically
breaches of the NFL Policy’s obligation of diligence
and good faith against all Defendants, based on
Plaintiffs status as third-party beneficiaries of the
NFL Policy; (2) unjust enrichment against all
Defendants for violating the NFL Policy and
relocating to Los Angeles, resulting in the Rams
alleged $550 million relocation fee payment to the
other Defendants and the Rams’ alleged increased
franchise value; (3) fraudulent misrepresentation
against Appellants based upon alleged false and
misleading statements made by Appellants that
induced Plaintiffs to spend considerable time and
money financing and working on a new stadium
complex; (4) fraudulent misrepresentation against all
2 Counsel for Appellants conceded at oral argument the Rams
needed an affirmative vote from three-fourths of the members
clubs pursuant to the NFL Policy before it could relocate from St.
Louis to Los Angeles.

App-12
Defendants based upon Defendants’ alleged
fraudulent misrepresentations that induced Plaintiffs
to spend considerable time and money financing and
working on a new stadium complex plan; and (5)
tortious inference with business expectancy against
all Defendants, except the Rams, based upon the
Defendants’ intentional interference with Plaintiffs’
reasonable business expectancy by approving the
Rams’ relocation. The only exhibit attached to
Plaintiffs’ petition was the NFL Policy.
The Rams and Kroenke moved to compel
arbitration which was denied. None of the other
Defendants besides the Rams and Kroenke were
parties to the motion to compel arbitration and are not
parties to this appeal. 3 The Rams and Kroenke
(“Appellants”) appeal that decision. 4

The denial of a motion to compel arbitration is appealable
under section 435.440 RSMo (2016). “Although normally an order
that does not dispose of all the parties and claims is not
appealable, an order overruling a motion to compel arbitration is
immediately appealable under section 435.440.1(1), RSMo 2000.”
Eaton v. CMH Homes, Inc., 461 S.W.3d 426, 431 n.2 (Mo. banc
2015).
3

Following oral argument, Plaintiffs filed a letter and an
exhibit with the clerk purportedly pursuant to Local Rule 370.
Local Rule 370 provides that “[c]ounsel may call the court’s
attention to intervening decisions or new developments by filing
a short letter providing the supplemental citations with the clerk
in accordance with Rule 84.20 and Rule 30.08.” Plaintiffs did not
provide the clerk with supplemental citations but attempted to
supplement the record on appeal. Local Rule 370 is not the proper
procedure for supplementing the record on appeal. We have not
considered the letter or the exhibit in deciding this appeal.
4

App-13
Standard of Review
We review do novo the legal issue of whether an
arbitration agreement exists between the parties.
State ex rel. Pinkerton v. Fahnestock, 531 S.W.3d 36,
42 (Mo. banc 2017). Whether a motion to compel
arbitration should have been granted is a question of
law subject to de novo review. Triarch Indus., Inc. v.
Crabtree, 158 S.W.3d 772, 774 (Mo. banc 2005).
Discussion
Appellants raise three points on appeal.
Appellants contend the trial court erred by denying
their motion to compel arbitration because:
(1) Plaintiffs
and
Appellants
“clearly
and
unmistakably” agreed as a matter of law to delegate
to the arbitrators the power to decide whether
Plaintiffs’ claims must be arbitrated by incorporating
the rules of the American Arbitration Association
(“AAA”) in the arbitration clauses into the 1995 Lease
and 1995 Relocation Agreement; (2) Plaintiffs and
Appellants’ dispute touches matters covered by the
1995 Lease and 1995 Relocation Agreement
containing mandatory broad arbitration clauses and
therefore Plaintiffs’ claims must be arbitrated; and
(3) Kroenke, an agent of the Rams, may invoke the
arbitration provisions in the 1995 Lease and 1995
Relocation Agreement because an agent of a signatory
to an arbitration clause may invoke arbitration
against another signatory. Each of Appellants’ points
is premised on the arbitration provisions in the 1995
Lease and 1995 Relocation Agreement being
applicable to Plaintiffs’ claims related to the NFL
Policy, and in support, Appellants primarily rely on
the Missouri Supreme Court’s Pinkerton decision.

App-14
Point I
For Point I, Appellants argue the circuit court
erred in determining the parties did not “clearly and
unmistakably” agree to exclusively delegate
arbitrability determinations to an arbitrator solely by
reference to the 1993 rules of the American
Arbitration Association (AAA). Appellants contend the
appropriate analysis, under State ex rel. Pinkerton v.
Fahnestock, is we find “clear and unmistakable”
evidence of the parties’ contractual intent by
incorporating an AAA jurisdictional competence rule
which did not exist until 2003, through the contract’s
reference to “then-existent” arbitration rules of the
AAA or some “similar services.” Respondents note no
“clear and unmistakable” evidence of the parties’
intent can be traced back to the 1995 agreement,
because such rules did not exist and could not have
been specifically referenced to delegate such
authority.
In Pinkerton, a student entered into an
enrollment agreement with an aviation school that
contained an arbitration agreement incorporating by
reference the AAA commercial rules. After graduating
from the school, the student could not find
employment in the aviation field so he sued the school
alleging various claims. The school moved to compel
arbitration, and the circuit court granted the school’s
motion to compel arbitration. The student appealed,
arguing the school’s incorporation of the AAA rules
into the arbitration agreement did not “clearly and
unmistakably” express the parties’ intent to delegate
threshold issues of arbitrability to an arbitrator.

App-15
Applying Missouri’s general contract principles,
the Missouri Supreme Court held that by
incorporating the commercial AAA rules into their
arbitration agreement, which included a delegation
provision at the time of formation, “the parties
expressed their intent to arbitrate any dispute under
these rules, including the AAA’s ‘jurisdiction’ rule
providing that the ‘arbitrator shall have the power to
rule on his or her own jurisdiction, including any
objections with respect to the existence, scope, or
validity of the arbitration agreement.’” 531 S.W.3d at
48. The Court found the delegation provision clearly
and unmistakably evidenced the parties’ intent to
delegate threshold issues of arbitrability to the
arbitrator. Id.
Pinkerton directs us to look for “a clear reference
to an identifiable, ascertainable set of rules,”
measured “at the time the parties signed the
underlying agreement.” State ex rel. Pinkerton v.
Fahnestock, 531 S.W.3d 36, 45 n.2 (Mo. banc 2017)
(noting different versions of the rules contain the same
jurisdiction
clause)(emphasis
added).
When
considering whether parties have intended to delegate
threshold questions of arbitrability to an arbitrator,
“[c]ourts should not assume that the parties agreed to
arbitrate arbitrability unless there is clea[r] and
unmistakabl[e] evidence that they did so.” State ex rel.
Pinkerton v. Fahnestock, 531 S.W.3d 36, 43 (Mo. banc
2017) (citing Rent-A-Ctr., W., Inc. v. Jackson, 561 U.S.
63, 69 n.1, 130 S.Ct. 2772, 177 L.Ed.2d 403 (2010))
(emphasis added). 5 The language chosen must
5 The recent United States Supreme Court decision in Henry
Schein, Incorporated, et al., v. Archer and White Sales,

App-16
unambiguously establish the “parties’ manifestation
of intent” to withdraw from courts the authority to
resolve issues of arbitrability. Rent-A-Center, West Inc.
v. Jackson, 561 U.S. 63, 69 n.1 (2010). This language
can be found, for example, where parties have
“expressly agreed” to grant “exclusive authority” to an
arbitrator. Soars v. Easter Seals Midwest, 563 S.W.3d
111, 114 (Mo. banc 2018). In Soars, a delegation
provision “is simply an additional antecedent
agreement the party seeking arbitration asks the
court to enforce.” Soars, 563 S.W.3d at 114. We look to
the agreement to see if the parties affirmatively
addressed the question of who decides arbitrability.
Dotson, 472 S.W. 3d at 602; accord Soars, 563 S.W.3d
at 114.
Appellants argue we can and should look to
Federal court analysis undertaken by the Federal
District Court for the Eastern District of Missouri in
McAllister v. The St. Louis Rams, LLC, No. 4:16-CV172 SNLJ (E.D. Mo. Nov. 17, 2017). Appellants assert
the McAllister Court reviewed identical language from
Incorporated, 586 U.S. ––––, 139 S.Ct. 524, 202 L.Ed.2d 480
(2019) does not impact our analysis. In Henry Schein, the
Supreme Court addressed the “wholly groundless” exception
applied by some federal courts to avoid sending a claim to
arbitration when the “argument for arbitration is wholly
groundless.” Id. at 528. The Supreme Court held the “wholly
groundless” exception to be inconsistent with the FAA and
reiterated that when a contract delegates arbitrability to an
arbitrator, the court may not override that contractual
agreement. Id. at 528. However, the Court also reaffirmed that
such delegation to an arbitrator must do so by “clear and
unmistakable” evidence. Id. at 530. (quoting First Options of
Chicago, Inc. v. Kaplan, 514 U.S. 938, 943-46, 115 S.Ct. 1920, 131
L.Ed.2d 985 (1995)).

App-17
the same contract which constrained it to find mere
incorporation of the AAA rules to be “clear and
unmistakable” evidence, adhering to Eighth Circuit
precedent. Id. (citing Fallo v. High-Tech Inst., 559
F.3d 874, 878 (8th Cir. 2009)). In Fallo, the Eighth
Circuit reasoned AAA Rule 7(a) mandated “the
arbitrator shall have the power to rule on his or her
own jurisdiction,” when incorporated through explicit
and exclusive reference to the AAA Rules in the
delegation clause, providing “clear and unmistakable”
evidence of exclusive jurisdiction to the arbitrator.
Fallo, 559 F.3d at 877 (citing R-7. Jurisdiction, AAAARBRLCML 03 s R-7(a))
Fallo and McAllister are distinguishable and
unpersuasive because, here, the AAA Rule 7(a) did not
exist at the time the delegation clause was drafted.
Unlike the McAllister Court, we are not similarly
constrained to follow the Eighth Circuit. A.H. by &
through D’Avis v. Indep. Sch. Dist., 466 S.W.3d 17, 23
(Mo. App. W.D. 2015) (“While federal court decisions
are not binding on this court, they are persuasive
authority”).
More
importantly,
rather
than
simplifying the analysis as the McAllister Court did,
Fallo’s reference to Express Scripts, Inc. v. Aegon
Direct Mktg. Services, Inc., 516 F.3d 695, 701 (8th Cir.
2008) highlights an absence of Eighth Circuit
guidance on the question before us today: how to
resolve this “incorporation” argument when the
arbitration jurisdictional rule supposedly referenced
did not exist at the time of contract formation. See
Express Scripts, Inc., 516 F.3d at 701 (declining to
address whether AAA Rules in effect at the time of
dispute incorporates Rule 7(a)’s jurisdictional
delegation of arbitrability where the AAA did not

App-18
contain jurisdictional delegation at contract
formation). Given the unique facts of this case, we are
unpersuaded this line of federal cases informs our
analysis.
Applying Missouri law, Appellants argue their
case is similar to Pinkerton simply because they have
an arbitration clause that incorporates the AAA Rules
“in accordance with the most applicable then existing
rules . . . .” However, Appellants misrepresent the
plain language of the purported delegation clause
from 1995, which reads: “in accordance with the most
applicable then existing rules of the American
Arbitration Association (or its successor or in the
absence of a successor, an institution or organization
offering similar services).” On the face of this contract,
it does not clearly and unmistakably incorporate AAA
rules on exclusive jurisdiction by reference, merely
whatever rules are in use by AAA or some similar
service at the time of a dispute. The jurisdictional
delegation language necessary to “clearly and
unmistakably” evidence a delegation of arbitrability to
an arbitrator would not be present in the AAA
commercial rules for nearly a decade. At the time of
formation of the contract, the 1993 AAA rules in effect
to which the parties referred did not affirmatively
incorporate jurisdictional challenges, and did not do so
until 2003. 6 When the AAA rules were revised in 1996,
See generally AAA-ARBRLCML 96 (July 1, 1996) (lacking any
mention of self-determination of arbitrability); but see R-7.
Jurisdiction, AAA-ARBRLCML 03 s R-7(a) (July 1, 2003) (“the
arbitrator shall have the power to rule on his or her own
jurisdiction, including any objections with respect to the
existence, scope, or validity of the arbitration agreement or to the
arbitrability of any claim or counterclaim.”)
6

App-19
even one year after the formation, this jurisdictional
delegation was still not present.
Simply stated, the change in the AAA rules in
2003 cannot and does not alter the parties’ contractual
intent in 1995, such that they “clearly and
unmistakably” intended to affirmatively grant
arbitrators the exclusive power to decide arbitrability
when the contract was formed. The AAA Rules are not
a time machine. Because AAA Rule 7(a) did not exist
at the time, we conclude the Plaintiffs, the Rams, and
Kroenke did not “clearly and unmistakably” enter into
an antecedent agreement in 1995 to delegate to
arbitrators the power to decide whether Plaintiffs’
claims must be arbitrated. The trial court did not err
denying the arbitrator the power to decide
arbitrability, given the unique factual history of this
case.
Point I is denied.
Point II
In Point II, Appellants contend that because
Plaintiffs’ claims touch matters covered by the 1995
Lease and 1995 Relocation Agreement containing
broad arbitration clauses, Plaintiffs’ claims must be
arbitrated. Appellants assert that resolving Plaintiffs’
claims will require reference to the 1995 Lease and
1995 Relocation Agreement. Specifically, Appellants
argue “the NFL relocation policy bars a club from
relocating if doing so ‘would result in a breach of the
club’s current stadium lease,’ a provision that on its
face mandates ‘reference to or construction of’ the
lease and accordingly requires arbitration.” Plaintiffs
counter that none of their claims relate to the 1995

App-20
Lease or 1995 Relocation Agreement and therefore
arbitration is not required.
Arbitration is solely a matter of contract. Id.
Parties cannot be required to arbitrate a dispute they
have not agreed to submit to arbitration. Id. The party
asserting the existence of a valid and enforceable
contract to arbitrate must prove that proposition.
Kohner Props., Inc. v. SPCP Group IV, LLC, 408
S.W.3d 336, 342 (Mo. App. E.D. 2013).
“A court may order arbitration of a particular
dispute only where the court is satisfied that the
parties agreed to arbitrate that dispute.” Granite Rock
Co. v. Int’l Bhd. of Teamsters, 561 U.S. 287, 297 (2010)
(emphasis in original). “To satisfy itself that such
agreement exists, the court must resolve any issue
that calls into question the formation or applicability
of the specific arbitration clause that a party seeks to
have the court enforce.” Id.
In determining whether the parties have
contracted to arbitrate, the usual rules of state
contract law and canons of contract interpretation
apply. Triarch Indus., Inc., 158 S.W.3d at 776. The
guiding principles of contract interpretation under
Missouri law is that a court will seek to ascertain the
intention of the parties and to give effect to that
intent. Id. The intent of the parties’ contract is
presumed to be expressed by the ordinary meaning of
the contract’s terms. Id. If the contract is
unambiguous, it will be enforced according to its
terms. Id. If ambiguous, it will be construed against
the drafter. Id.
The trial court should order arbitration of any
dispute that touches matters covered by the parties’

App-21
contract. Ruhl v. Lee’s Summit Honda, 322 S.W.3d
136, 138 (Mo. banc 2010) (quoting Kansas City
Urology, P.A. v. United Healthcare Servs., 261 S.W.3d
7, 12 (Mo. App. W.D. 2008)). As part of the scope
analysis, the court must look to any exclusions or
exceptions in the arbitration agreement. Manfredi v.
Blue Cross & Blue Shield of Kansas City, 340 S.W.3d
126, 131 (Mo. App. W.D. 2011) (En banc). Express
provisions excluding particular grievances from
arbitration are enforceable. Id.
For a tort claim to be subject to arbitration, it
must raise some issue the resolution of which requires
reference to or construction of some portion of the
parties’ contract. Riley v. Lucas Lofts Investors, LLC,
412 S.W.3d 285, 291 (Mo. App. E.D. 2013). Where a
tort claim is independent of the contract terms and
does not require reference to the underlying contract,
arbitration is not required. Id. The relationship
between the tort claim and the contract is not satisfied
simply because the dispute would not have arisen
absent the existence of the contract between the
parties. Id.
Here, Plaintiffs’ claims are based on their alleged
status as third-party beneficiaries to the NFL Policy
and Defendants’ purported noncompliance with that
policy as it relates to the Rams move from St. Louis to
Los Angeles in 2016. The NFL Policy contains no
arbitration provision, but Appellants seek to invoke
arbitration provisions from the Rams’ 1995 Lease and
1995 Relocation Agreement entered into when the
Rams moved from the Los Angeles market to St. Louis
in 1995. Appellants contend that because Plaintiffs’
claims “touch matters” covered by the 1995 Lease and

App-22
1995 Relocation Agreement, arbitration is required.
We disagree.
At issue is whether Plaintiffs and Appellants
agreed to arbitrate the disputes raised in Plaintiffs’
petition—not whether they agreed to arbitrate
disputes arising out of the 1995 Lease or 1995
Relocation Agreement. We conclude that Plaintiffs
and Appellants have not agreed to arbitrate the
specific disputes related to the NFL Policy. In
reaching this conclusion, we consider each claim.
Plaintiffs’ claims concern whether Defendants
complied with their obligations under the NFL Policy
in relocating the Rams from St. Louis in 2016. Count
I alleges breach of contract against all Defendants,
specifically breach of the NFL Policy’s obligation of
diligence and good faith. Count II alleges unjust
enrichment against all Defendants based on
Defendants’ alleged noncompliance with the NFL
Policy. Count III alleges fraudulent misrepresentation
against Appellants and count IV alleges fraudulent
misrepresentation against all Defendants based on
the respective parties’ alleged fraudulent statements
to Plaintiffs intending to induce Plaintiffs into
continuing to keep the Rams in St. Louis. Count V
alleges tortious interference with business expectancy
against all Defendants, except the Rams, based upon
the clubs’ vote allowing the Rams to move from St.
Louis to Los Angeles. These counts are based on the
respective Defendants’ alleged failure to comply with
their obligations under the NFL Policy, not the 1995
Lease or 1995 Relocation Agreement. Plaintiffs’ claims
are independent of the 1995 Lease and 1995
Relocation Agreement evidenced by Plaintiffs

App-23
maintaining the same claims against the other eightyeight Defendants. Those Defendants are not parties to
the 1995 Lease and 1995 Relocation Agreement.
Plaintiffs’ claims against the other Defendants exist
independently based on the NFL Policy, as do
Plaintiffs’ claims against the Appellants.
The Rams’ 1995 Lease and 1995 Relocation
Agreement concerned the Rams relocation in 1995.
Plaintiffs have alleged no violation of the 1995 Lease
or 1995 Relocation Agreement, and Plaintiffs’ claims
do not require reference to or construction of those
contracts. The NFL Policy’s prohibition on relocation
if it would cause a breach of a current club’s lease does
not require us to interpret the 1995 Lease because the
1995 Lease was terminated and there is no issue on
whether it was breached. Thus, we are not satisfied
the parties agreed to arbitrate the specific disputes
here. See NutraPet Sys., LLC v. Proviera Biotech,
LLC, 542 S.W.3d 410, 415 n.9 (Mo. App. W.D. 2017)
(distinguishing Pinkerton because there was no
arbitration provision agreed to by the parties
applicable to the claims arising from the promissory
note at issue); Hopwood v. CitiFinancial, Inc., 429
S.W.3d 425, 427-28 (Mo. App. S.D. 2014) (affirming
the trial court’s denial of the motion to compel
arbitration because the earlier-executed arbitration
agreements executed between 2003 and 2005 did not
apply to respondents’ claims arising from the 2006
Note). While unnecessary, a review of the arbitration
provisions in the 1995 Lease and 1995 Relocation
Agreement further support our conclusion.
The arbitration provision in the 1995 Lease states
that “any claim arising out of, in connection with, or

App-24
in relation to the interpretation, performance or
breach of this Amended Lease (including any
determination of whether the ‘First Tier’ or ‘First
Class’ standard provided in Section 1.3 of Annex 1 to
this Amended Lease has been met) shall be settled by
arbitration . . . .” (Emphasis added). Similarly, the
arbitration provision in the 1995 Relocation
Agreement states that “any controversy, dispute or
claim . . . related to this Relocation Agreement,
including without limitation, any claim arising out of,
in connection with, or in relation to the interpretation,
performance or breach of this Relocation Agreement
shall be settled by arbitration . . . .” (Emphasis added).
We find the parties’ intent behind these provisions
was to arbitrate any claims related “to the
interpretation, performance, or breach” of the 1995
Lease and 1995 Relocation Agreement. Plaintiffs’
claims, however, are not related to the interpretation,
performance, or breach of the 1995 Lease or 1995
Relocation Agreement. The Rams terminated the 1995
Lease before relocating to Los Angeles. Plaintiffs do
not claim the Rams breached the 1995 Lease or the
1995 Relocation Agreement and do not dispute the
Rams had the right to relocate under those
agreements.
Plaintiffs allege that in reliance on Defendants’
obligations imposed by the NFL Policy they took
action to develop and finance a new stadium complex.
Plaintiffs’ claims relate to the interpretation,
performance, and alleged breach by Defendants—not
just Appellants—of the NFL Policy. There is no need
to interpret the 1995 Lease and 1995 Relocation
Agreement to resolve Plaintiffs’ claims.

App-25
Further, the 1995 Lease explicitly excludes the
City and the County from the arbitration clause.
While the exclusion states that the City and the
County may only sue or be sued in Federal District for
the Eastern District of Missouri, this supports that the
parties to the 1995 Lease did not intend for the City
and County to arbitrate their claims related to the
interpretation, performance, or breach of the 1995
Lease, let alone Plaintiffs’ claims under the NFL
Policy.
Appellants’ point two is denied. Because there is
no arbitration agreement applicable to Plaintiffs’
claims, Appellants’ points three is also denied. See
Hopwood, 429 S.W.3d at 427 (denying appellants
claim that the arbitrator must decide whether
arbitration is appropriate because it was wrongfully
premised on a valid arbitration agreement applicable
to respondents’ underlying claims).
Conclusion
For the reasons stated above, the trial court’s
denial of Appellants’ motion to compel arbitration is
affirmed.
[handwritten: signature]
Philip M. Hess, Judge
Lisa P. Page, C.J. and
Roy L. Richter, J. concur.

App-26
Appendix D
SUPREME COURT OF MISSOURI
EN BANC
________________
No. SC97488
________________
ST. LOUIS REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,
v.

Respondents,

NATIONAL FOOTBALL LEAGUE, et al.,
and

Defendants,

THE RAMS FOOTBALL COMPANY, LLC and
E. STANLEY KROENKE,
Appellants.
________________
Filed: Jan. 29, 2019
________________
ORDER
________________
Now at this day, on consideration of Appellants’
application to transfer the above-entitled cause from
the Missouri Court of Appeals, Eastern District, it is
ordered that the said application be, and the same is
hereby sustained and cause ordered transferred.
It is further ordered that the cause be, and it is
hereby retransferred to the Missouri Court of Appeals,
Eastern District, for reconsideration in light of Henry

App-27
Schein, Inc. v. Archer and White Sales, Inc., 586 U.S.
__ (2019) and Soars v. Easter Seals Midwest, No.
SC97018 (decided December 18, 2018).
STATE OF MISSOURI-Sct.
I, Betsy AuBuchon, Clerk of the Supreme Court of
the State of Missouri, certify that the foregoing is a
full, true and complete transcript of the judgment of
said Supreme Court, entered of record at the January
Session, 2019, and on the 29th day of January, 2019,
in the above-entitled cause.
IN TESTIMONY WHEREOF, I have hereunto set
my hand and the seal of said Court, at my office in the
City of Jefferson, this 29th day of January, 2019.
[handwritten: signature], Clerk
[handwritten: signature], Deputy
Clerk

App-28
Appendix E
MISSOURI COURT OF APPEALS
EASTERN DISTRICT
________________
No. ED106282-01
________________
ST. LOUIS REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,
v.

Respondents,

NATIONAL FOOTBALL LEAGUE, et al, and THE RAMS
FOOTBALL COMPANY, LLC and
E. STANLEY KROENKE,
Appellants.
________________
Filed: Oct. 2, 2018
________________
OPINION ON APPLICATION FOR TRANSFER
________________
Appellants argue that we failed to address the
antecedent question of whether the parties delegated
to arbitrators, not courts, the power to decide
arbitrability, contravening Pinkerton. Appellants are
incorrect. In our opinion, we specifically distinguished
Pinkerton on the ground that Pinkerton had an
applicable arbitration agreement; whereas, this case
does not. We fail to see how parties can delegate the
power to decide arbitrability if there is no applicable
arbitration provision in the first place.

App-29
Appellants want us to ignore what this lawsuit is
about, i.e., the NFL Policy, presume their 1995 Lease
applies to this lawsuit, and then send it blindly to
arbitration because the parties entered into the 1995
Lease that contains an arbitration delegation
provision. But to do so we would have to ignore the
basic principles that arbitration is solely a matter of
contract, and that a party is not required to arbitrate
matters it has not agreed to arbitrate. The parties to
the NFL Policy—what this case is about—did not
agree to arbitration. As Pinkterton set forth:
Parties cannot be required to submit to
arbitration any dispute which he [or she] has
not agreed so to submit. Therefore, because
arbitration is a matter of consent, not
coercion, a court must be satisfied that the
parties have concluded or formed an
arbitration agreement before the court may
order arbitration to proceed according to the
terms
of
the
agreement.
Questions
concerning whether an arbitration agreement
was ever concluded are, therefore, generally
nonarbitral question[s].
531 S.W.3d at 49 (internal questions and citations
omitted). Our decision is in accord with Pinkerton.
Appellants also contend we ignored their defenses
to Plaintiffs’ claims in evaluating whether the
arbitration clauses from the 1995 Lease or 1995
Relocation Agreement covered the disputes at issue in
this case. This is not true. We considered Appellants
“artfully pleaded” defenses and did not find they
required arbitration. The application for transfer is
denied.

App-30
[handwritten: signature]
Philip M. Hess, Judge
Lisa P. Page, C.J. and
Roy L. Richter, J. concur.

App-31
Appendix F
MISSOURI COURT OF APPEALS
EASTERN DISTRICT
________________
No. ED106282-01
________________
ST. LOUIS REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,
v.

Respondents,

NATIONAL FOOTBALL LEAGUE, et al, and THE RAMS
FOOTBALL COMPANY, LLC and
E. STANLEY KROENKE,
Appellants.
________________
Filed: Aug. 21, 2018
________________
OPINION
________________
Introduction
The St. Louis Regional Convention and Sports
Complex Authority (the “RSA”), the City of St. Louis
(the “City”), and St. Louis County (the “County”)
(collectively “Plaintiffs”) sued The Rams Football
Company, LLC (“Rams”), the National Football
League (“NFL”), through its thirty-two member clubs,
and the clubs’ owners, including E. Stanley Kroenke,
the Rams’ owner (collectively “Defendants”), alleging
five counts arising out of the Rams’ 2016 relocation
from St. Louis to Los Angeles. Plaintiffs sued based on

App-32
their alleged status as third-party beneficiaries of the
NFL’s “Policy and Procedures for Proposed Franchise
Relocations” (the “NFL Policy”). The Rams and
Kroenke moved to compel arbitration, arguing the
“NFL Franchise Relocation Agreement” (the “1995
Relocation Agreement”) and the “Amended and
Restated St. Louis NFL Lease” (the “1995 Lease”)
entered in 1995 when the Rams relocated from the Los
Angeles market to St. Louis compelled arbitration
because
those
contracts
contain
mandatory
arbitration provisions and Plaintiffs’ claims “touch
matters” covered by those contracts. The trial court
denied the Rams and Kroenke’s motion to compel. The
Rams and Kroenke (“Appellants”) appeal that
decision. Because we conclude the parties did not
enter into an arbitration agreement which applies to
Plaintiffs’ claims, we affirm.
Factual and Procedural Background
A. The NFL Constitution and Bylaws
Article 4.3 of the NFL Constitution and Bylaws
requires an affirmative vote of three-fourths of its
member clubs before a club may transfer its franchise
or playing site to a different city. Article 4.3 confirms
that each club’s primary obligation to the NFL and to
all other member clubs is to advance the interests of
the NFL in its home city. Article 4.3 also confirms that
no club has an “entitlement” to relocate simply
because it perceives an opportunity for enhanced club
revenues in another location. Relocation pursuant to
Article 4.3 may be available, however, if a club’s
viability in its home city is threatened by
circumstances that cannot be remedied by diligent
efforts of the club working, as appropriate, in

App-33
conjunction with the NFL, or if compelling NFL
interests warrant a franchise relocation.
B. The NFL’s Relocation Policy
In 1984, pursuant to the NFL Constitution and
Bylaws, the NFL adopted the NFL Policy. The NFL
Policy sets forth the policies and procedures that apply
to any proposed transfer of a club’s home territory. The
NFL Policy states that because the NFL favors stable
team-community relations, clubs are obligated to work
diligently and in good faith to obtain and to maintain
suitable stadium facilities in their home city, and to
operate in a manner that maximizes fan support in
their current home community.
The NFL Policy requires a club to submit a
proposal for transfer to the NFL before it may transfer
its franchise or playing site outside its current home
city. The club must give the Commissioner of the NFL
written notice of its proposed transfer and a
“statement of reasons” in support of the proposed
transfer. The NFL Policy provides that the
Commissioner will evaluate the proposed transfer and
report to the members. Following the Commissioner’s
report, the proposal is presented to the members for a
vote. In considering a proposed relocation, the clubs
are allowed to consider a number of factors, but must
address the degree to which the club has engaged in
good faith negotiations, and enlisted the NFL to assist
in such negotiations, with appropriate persons
concerning terms and conditions under which the club
would remain in its current home city and afforded
that community a reasonable amount of time to
address pertinent proposals.

App-34
The NFL Policy states that if a club’s proposal to
relocate to a new home territory is approved, the
relocating club will ordinarily be expected to pay a
transfer fee to the NFL. The transfer fee will
compensate other member clubs of the NFL for the
loss of the opportunity appropriated by the relocating
club and the enhancement in the value of the franchise
resulting from the move. The NFL Policy does not
have an arbitration provision.
C. The Rams’ 1995 Relocation From the Los
Angeles Market to St. Louis
In 1995, the Rams submitted a proposal to
relocate their home playing site from Anaheim to St.
Louis. Upon NFL approval, the Rams relocated to St.
Louis effective with the 1995 NFL season. As a part of
that relocation, the Rams, the Regional Convention
and Visitors Commission (“CVC”), and the St. Louis
NFL Corporation (“SLNFL”) entered into the 1995
Lease. Section 25 of the 1995 Lease contained an
arbitration provision stating:
Any controversy, dispute or claim between or
among any of the parties hereto (and/or any
of those consenting hereto pursuant to the
Consents to Assignment (other than the City,
County or SLMFC, which may only bring an
action or against which an action may only be
brought in United States Federal District
Court for the Eastern District of Missouri,
with the right to jury waived)) to this
Amended Lease, related to this Amended
Lease, including, without limitation, any
claim arising out of, in connection with, or in
relation to the interpretation, performance or

App-35
breach of this Amended Lease (including any
determination of whether the “First Tier” or
“First Class” standard provided in Section 1.3
of Annex 1 to this Amended Lease has been
met) shall be settled by arbitration conducted
before three arbitrators in St. Louis,
Missouri, in accordance with the most
applicable then existing rules of the American
Arbitration Association (or its successor or in
the absence of a successor, an institution or
organization offering similar services), and
judgment upon any award rendered by the
arbitrator may be entered by any federal or
state court having jurisdiction thereof. Such
arbitration shall be the exclusive dispute
resolution mechanism. . . .
The Rams, the CVC, the RSA, Fans, Inc., and the
SLNFL also entered into the 1995 Relocation
Agreement. 1 The 1995 Relocation Agreement
contained an arbitration provision stating:
Any controversy, dispute or claim between or
among any of the parties hereto related to
this Relocation Agreement, including without
limitation, any claim arising out of, in
connection with, or in relation to the
interpretation, performance or breach of this
Relocation Agreement shall be settled by

1 The City and County are listed as “Sponsors” of the 1995
Lease and the 1995 Relocation Agreement. The parties have not
raised any issue about whether the City and County’s status as
“Sponsors” made them parties to those contracts.

App-36
arbitration as set forth or as otherwise
provided in Section 25 or the Amended Lease.
D. The Rams’ 2016 Relocation From St.
Louis to Los Angeles
In January 2016, the Rams submitted a proposed
relocation application to relocate from St. Louis to Los
Angeles and a statement of reasons in support to the
NFL. On January 12, 2016, the club owners voted to
allow the relocation of the Rams from St. Louis to Los
Angeles. 2 The Rams terminated the 1995 Lease and
relocated to Los Angeles effective with the 2017 NFL
season.
E. Plaintiffs’ Suit
Plaintiffs filed this suit as result of the Rams’
2016 relocation. Plaintiffs alleged Defendants violated
the obligations and standards governing team
relocations by seeking and approving the relocation of
the Rams from St. Louis to Los Angeles, despite
Defendants’ failure to satisfy the obligations imposed
by the NFL Policy. Plaintiffs alleged that in reliance
on Defendants’ obligations imposed by the NFL Policy
they took action to develop and finance a new stadium
complex to try and keep the Rams in St. Louis. The
suit alleges five counts: (1) breach of contract,
specifically breaches of the NFL Policy’s obligation of
diligence and good faith against all Defendants, based
on Plaintiffs status as third-party beneficiaries of the
NFL Policy; (2) unjust enrichment against all
2 Counsel for Appellants conceded at oral argument the Rams
needed an affirmative vote from three-fourths of the members
clubs pursuant to the NFL Policy before it could relocate from St.
Louis to Los Angeles.

App-37
Defendants for violating the NFL Policy and
relocating to Los Angeles, resulting in the Rams
alleged $550 million relocation fee payment to the
other Defendants and the Rams’ alleged increased
franchise value; (3) fraudulent misrepresentation
against Appellants based upon alleged false and
misleading statements made by Appellants that
induced Plaintiffs to spend considerable time and
money financing and working on a new stadium
complex; (4) fraudulent misrepresentation against all
Defendants based upon Defendants’ alleged
fraudulent misrepresentations that induced Plaintiffs
to spend considerable time and money financing and
working on a new stadium complex plan; and
(5) tortious inference with business expectancy
against all Defendants, except the Rams, based upon
the Defendants’ intentional interference with
Plaintiffs’ reasonable business expectancy by
approving the Rams’ relocation. The only exhibit
attached to Plaintiffs’ petition was the NFL Policy.
The Rams and Kroenke moved to compel
arbitration which was denied. None of the other
Defendants besides the Rams and Kroenke were
parties to the motion to compel arbitration and are not

App-38
parties to this appeal. 3 The Rams and Kroenke
(“Appellants”) appeal that decision. 4
Standard of Review
We review do novo the legal issue of whether an
arbitration agreement exists between the parties.
State ex rel. Pinkerton v. Fahnestock, 531 S.W.3d 36,
42 (Mo. banc 2017). The question of whether a motion
to compel arbitration should have been granted is one
of law subject to de novo review. Triarch Indus., Inc.
v. Crabtree, 158 S.W.3d 772, 774 (Mo. banc 2005).
Discussion
Appellants raise three points on appeal.
Appellants contend the trial court erred by denying
their motion to compel arbitration because:
(1) Plaintiffs
and
Appellants
“clearly
and
unmistakably” agreed as a matter of law to delegate
to the arbitrators the power to decide whether
The denial of a motion to compel arbitration is appealable
under section 435.440 RSMo (2016). “Although normally an order
that does not dispose of all the parties and claims is not
appealable, an order overruling a motion to compel arbitration is
immediately appealable under section 435.440.1(1), RSMo 2000.”
Eaton v. CMH Homes, Inc., 461 S.W.3d 426, 431 n.2 (Mo. banc
2015).
3

Following oral argument, Plaintiffs filed a letter and an
exhibit with the clerk purportedly pursuant to Local Rule 370.
Local Rule 370 provides that “[c]ounsel may call the court’s
attention to intervening decisions or new developments by filing
a short letter providing the supplemental citations with the clerk
in accordance with Rule 84.20 and Rule 30.08.” Plaintiffs did not
provide the clerk with supplemental citations but attempted to
supplement the record on appeal. Local Rule 370 is not the proper
procedure for supplementing the record on appeal. We have not
considered the letter or the exhibit in deciding this appeal.
4

App-39
Plaintiffs’ claims must be arbitrated by incorporating
the rules of the American Arbitration Association
(“AAA”) in the arbitration clauses contained in the
1995 Lease and 1995 Relocation Agreement; (2)
Plaintiffs and Appellants’ dispute touches matters
covered by the 1995 Lease and 1995 Relocation
Agreement containing mandatory broad arbitration
clauses and therefore Plaintiffs’ claims must be
arbitrated; and (3) Kroenke, an agent of the Rams, is
entitled to invoke the arbitration provisions contained
in the 1995 Lease and 1995 Relocation Agreement
because an agent of a signatory to an arbitration
clause is entitled to invoke arbitration against another
signatory. Each of Appellants’ points is premised on
the arbitration provisions contained in the 1995 Lease
and 1995 Relocation Agreement being applicable to
Plaintiffs’ claims related to the NFL Policy, and in
support, Appellants primarily rely on the Missouri
Supreme Court’s Pinkerton decision.
In Pinkerton, a student entered into an
enrollment agreement with an aviation school that
contained an arbitration agreement incorporating by
reference the AAA commercial rules. After graduating
from the school, the student could not find
employment in the aviation field so he sued the school
alleging various claims. The school moved to compel
arbitration, and the circuit court granted the school’s
motion to compel arbitration. The student appealed,
arguing the school’s incorporation of the AAA rules
into the arbitration agreement did not “clearly and
unmistakably” express the parties’ intent to delegate
threshold issues of arbitrability to an arbitrator.

App-40
Applying Missouri’s general contract principles,
the Missouri Supreme Court held that by
incorporating the commercial AAA rules into their
arbitration agreement, which included a delegation
provision, “the parties expressed their intent to
arbitrate any dispute under these rules, including the
AAA’s ‘jurisdiction’ rule providing that the ‘arbitrator
shall have the power to rule on his or her own
jurisdiction, including any objections with respect to
the existence, scope, or validity of the arbitration
agreement.’” 531 S.W.3d at 48. Accordingly, the Court
found the delegation provision clearly and
unmistakably evidenced the parties’ intent to delegate
threshold issues of arbitrability to the arbitrator. Id.
Appellants argue that their case is similar to
Pinkerton because they have an arbitration clause
that incorporates the AAA Rules “in accordance with
the most applicable then existing rules . . . .” The
problem with Appellants’ argument is that they
presume the arbitration agreement from the 1995
Lease and/or the 1995 Relocation Agreement applies
to Plaintiffs’ claims. Plaintiffs allege their claims arise
out of the NFL Policy, which does not have an
arbitration provision. Pinkerton does not mandate
that an arbitrator decide whether the parties have
formed an arbitration agreement applicable to
Plaintiffs’ claims. See Pinkerton, 531 S.W.3d at 49
(“[A] court must be satisfied that the parties have
‘concluded’ or formed an arbitration agreement before
the court may order arbitration to proceed according
to the terms of the agreement.”). Those questions are
generally nonarbitral questions. Id. Thus, before we
interpret an arbitration provision, we have to
determine whether one is applicable in the first place.

App-41
Because Appellant’s point two is dispositive of this
issue, we consider it first.
In point two, Appellants contend that because
Plaintiffs’ claims touch matters covered by the 1995
Lease and 1995 Relocation Agreement containing
broad arbitration clauses, Plaintiffs’ claims must be
arbitrated. Appellants assert that resolving Plaintiffs’
claims will require reference to the 1995 Lease and
1995 Relocation Agreement. Specifically, Appellants
argue “the NFL relocation policy bars a club from
relocating if doing so ‘would result in a breach of the
club’s current stadium lease,’ a provision that on its
face mandates ‘reference to or construction of’ the
lease and accordingly requires arbitration.” Plaintiffs
counter that none of their claims relate to the 1995
Lease or 1995 Relocation Agreement and therefore
arbitration is not required.
Arbitration is solely a matter of contract. Id.
Parties cannot be required to arbitrate a dispute they
have not agreed to submit to arbitration. Id. The party
asserting the existence of a valid and enforceable
contract to arbitrate bears the burden of proving that
proposition. Kohner Props., Inc. v. SPCP Group IV,
LLC, 408 S.W.3d 336, 342 (Mo. App. E.D. 2013).
“A court may order arbitration of a particular
dispute only where the court is satisfied that the
parties agreed to arbitrate that dispute.” Granite Rock
Co. v. Int’l Bhd. of Teamsters, 561 U.S. 287, 297 (2010)
(emphasis in original). “To satisfy itself that such
agreement exists, the court must resolve any issue
that calls into question the formation or applicability
of the specific arbitration clause that a party seeks to
have the court enforce.” Id.

App-42
In determining whether the parties have entered
into a valid agreement to arbitrate, the usual rules of
state contract law and canons of contract
interpretation apply. Triarch Indus., Inc., 158 S.W.3d
at 776. The guiding principles of contract
interpretation under Missouri law is that a court will
seek to ascertain the intention of the parties and to
give effect to that intent. Id. The intent of the parties’
contract is presumed to be expressed by the ordinary
meaning of the contract’s terms. Id. If the contract is
unambiguous, it will be enforced according to its
terms. Id. If ambiguous, it will be construed against
the drafter. Id.
The trial court should order arbitration of any
dispute that touches matters covered by the parties’
contract. Ruhl v. Lee’s Summit Honda, 322 S.W.3d
136, 138 (Mo. banc 2010) (quoting Kansas City
Urology, P.A. v. United Healthcare Servs., 261 S.W.3d
7, 12 (Mo. App. W.D. 2008)). As part of the scope
analysis, the court must look to any exclusions or
exceptions contained in the arbitration agreement.
Manfredi v. Blue Cross & Blue Shield of Kansas City,
340 S.W.3d 126, 131 (Mo. App. W.D. 2011) (En banc).
Express provisions excluding particular grievances
from arbitration are enforceable. Id.
For a tort claim to be subject to arbitration, it
must raise some issue the resolution of which requires
reference to or construction of some portion of the
parties’ contract. Riley v. Lucas Lofts Investors, LLC,
412 S.W.3d 285, 291 (Mo. App. E.D. 2013). Where a
tort claim is independent of the contract terms and
does not require reference to the underlying contract,
arbitration is not required. Id. The relationship

App-43
between the tort claim and the contract is not satisfied
simply because the dispute would not have arisen
absent the existence of the contract between the
parties. Id.
Here, Plaintiffs’ claims are based on their alleged
status as third-party beneficiaries to the NFL Policy
and Defendants’ purported noncompliance with that
policy as it relates to the Rams move from St. Louis to
Los Angeles in 2016. The NFL Policy does not contain
an arbitration provision, but Appellants seek to invoke
arbitration provisions from the Rams’ 1995 Lease and
1995 Relocation Agreement entered into when the
Rams moved from the Los Angeles market to St. Louis
in 1995. Appellants contend that because Plaintiffs’
claims “touch matters” covered by the 1995 Lease and
1995 Relocation Agreement, arbitration is required.
We disagree.
At issue is whether Plaintiffs and Appellants
agreed to arbitrate the disputes raised in Plaintiffs’
petition—not whether they agreed to arbitrate
disputes arising out of the 1995 Lease or 1995
Relocation Agreement. We conclude that Plaintiffs
and Appellants have not agreed to arbitrate the
specific disputes at issue here related to the NFL
Policy. In reaching this conclusion, we consider each
claim.
Plaintiffs’ claims concern whether Defendants
complied with their obligations under the NFL Policy
in relocating the Rams from St. Louis in 2016. Count
I alleges breach of contract against all Defendants,
specifically breach of the NFL Policy’s obligation of
diligence and good faith. Count II alleges unjust
enrichment against all Defendants based on

App-44
Defendants’ alleged noncompliance with the NFL
Policy. Count III alleges fraudulent misrepresentation
against Appellants and count IV alleges fraudulent
misrepresentation against all Defendants based on
the respective parties’ alleged fraudulent statements
to Plaintiffs intending to induce Plaintiffs into
continuing to try and keep the Rams in St. Louis.
Count V alleges tortious interference with business
expectancy against all Defendants, except the Rams,
based upon the clubs’ vote allowing the Rams to move
from St. Louis to Los Angeles. All of these counts are
based on the respective Defendants’ alleged failure to
comply with their obligations under the NFL Policy,
not the 1995 Lease or 1995 Relocation Agreement.
Plaintiffs’ claims are independent of the 1995 Lease
and 1995 Relocation Agreement which is evidenced by
Plaintiffs maintaining the same claims against the
other eighty-eight Defendants. Those Defendants are
not parties the 1995 Lease and 1995 Relocation
Agreement, and like Plaintiffs’ claims against
Appellants, Plaintiffs’ claims against the other
Defendants exist independently based on the NFL
Policy.
The Rams’ 1995 Lease and 1995 Relocation
Agreement concerned the Rams relocation in 1995.
Plaintiffs have not alleged any violation of the 1995
Lease or 1995 Relocation Agreement, and Plaintiffs’
claims do not require reference to or construction of
those contracts. The NFL Policy’s prohibition on
relocation if it would result in a breach of a current
club’s lease does not require us to interpret the 1995
Lease because the 1995 Lease was terminated and
there is no issue as to whether it was breached. Thus,
we are not satisfied the parties agreed to arbitrate the

App-45
specific disputes at issue here. See NutraPet Sys., LLC
v. Proviera Biotech, LLC, 542 S.W.3d 410, 415 n.9 (Mo.
App. W.D. 2017) (distinguishing Pinkerton because
there was no arbitration provision agreed to by the
parties applicable to the claims arising from the
promissory note at issue); Hopwood v. CitiFinancial,
Inc., 429 S.W.3d 425, 427-28 (Mo. App. S.D. 2014)
(affirming the trial court’s denial of the motion to
compel arbitration because the earlier-executed
arbitration agreements executed between 2003 and
2005 did not apply to respondents’ claims arising from
the 2006 Note). While not necessary, a review of the
arbitration provisions in the 1995 Lease and 1995
Relocation Agreement further support our conclusion.
The arbitration provision in the 1995 Lease states
that “any claim arising out of, in connection with, or
in relation to the interpretation, performance or
breach of this Amended Lease (including any
determination of whether the ‘First Tier’ or ‘First
Class’ standard provided in Section 1.3 of Annex 1 to
this Amended Lease has been met) shall be settled by
arbitration . . . .” (Emphasis added). Similarly, the
arbitration provision in the 1995 Relocation
Agreement states that “any controversy, dispute or
claim . . . related to this Relocation Agreement,
including without limitation, any claim arising out of,
in connection with, or in relation to the interpretation,
performance or breach of this Relocation Agreement
shall be settled by arbitration . . . .” (Emphasis added).
We find the parties intent behind these provisions was
to agree to arbitrate any claims related “to the
interpretation, performance, or breach” of the 1995
Lease and 1995 Relocation Agreement. Plaintiffs’
claims, however, are not related to the interpretation,

App-46
performance, or breach of the 1995 Lease or 1995
Relocation Agreement. The Rams terminated the 1995
Lease before relocating to Los Angeles. Plaintiffs do
not claim the Rams breached the 1995 Lease or the
1995 Relocation Agreement in any manner and do not
dispute the Rams had the right to relocate under those
agreements.
Plaintiffs allege that in reliance on Defendants’
obligations imposed by the NFL Policy they took
action to develop and finance a new stadium complex.
Plaintiffs’ claims relate to the interpretation,
performance, and alleged breach by Defendants—not
just Appellants—of the NFL Policy. There is no need
to interpret the 1995 Lease and 1995 Relocation
Agreement to resolve Plaintiffs’ claims.
Further, the 1995 Lease explicitly excludes the
City and the County from the arbitration clause.
While the exclusion states that the City and the
County may only sue or be sued in Federal District for
the Eastern District of Missouri, this supports that the
parties to the 1995 Lease did not intend for the City
and County to arbitrate their claims related to the
interpretation, performance, or breach of the 1995
Lease, let alone Plaintiffs’ claims under the NFL
Policy.
Appellants’ point two is denied. Because there is
no arbitration agreement applicable to Plaintiffs’
claims, Appellants’ points one and three are denied.
See Hopwood, 429 S.W.3d at 427 (denying appellants
claim that the arbitrator must decide whether
arbitration is appropriate because it was wrongfully
premised on a valid arbitration agreement applicable
to respondents’ underlying claims).

App-47
Conclusion
For the reasons stated above, the trial court’s
denial of Appellants’ motion to compel arbitration is
affirmed.
[handwritten: signature]
Philip M. Hess, Judge
Lisa P. Page, C.J. and
Roy L. Richter, J. concur.

App-48
Appendix G
MISSOURI CIRCUIT COURT
TWENTY-SECOND JUDICIAL CIRCUIT
________________
No. 1722-CC00976
________________
ST. LOUIS REGIONAL CONVENTION AND SPORTS
COMPLEX AUTHORITY, et al.,
v.

Plaintiffs,

NATIONAL FOOTBALL LEAGUE, et al,
Defendants.
________________
Filed: Dec. 27, 2017
________________
ORDER
________________
The Court has before it Defendants Rams and E.
Stanley Kroenke’s Application to Compel Arbitration
of All Counts. The Court now rules as follows.
Plaintiffs in this matter are the City and County
of St. Louis and the St. Louis Regional Convention and
Sports Complex Authority, a public entity. Defendants
are the National Football League, an unincorporated
association; all 32 of its member clubs; and 57
individual owners and managers of the clubs. In 1995,
the Rams left Los Angeles and moved to St. Louis. The
Rams and St. Louis officials entered into a detailed
relocation agreement, which promised in part that the
Rams would receive a “first-tier stadium” in St. Louis,

App-49
or they would be allowed to relocate. Importantly for
purposes of this motion, the relocation agreement, and
the related stadium lease, contained a mandatory
arbitration provision.
The arbitration provision states that “any claim
arising out of, in connection with, or in relation to the
interpretation, performance or breach of” the
relocation agreement or lease, “shall be settled by
arbitration.” Although this matter does not concern
the interpretation, performance or breach of the 1995
relocation agreement or the lease, Defendants argue
that it is sufficiently related to one or the other to
require arbitration.
It is a firmly established principle that parties can
be compelled to arbitrate against their will only
pursuant to an agreement whereby they have agreed
to arbitrate claims. Greene v. Alliance Auto., Inc., 435
S.W.3d 646, 650 (Mo.App. W.D. 2014). The elements
required to form a valid agreement to arbitrate in
Missouri are offer, acceptance, and bargained for
consideration. Id. Whether a particular dispute is
covered by an arbitration provision is a question of law
to be decided by the Court. Rhodes v. Amega Mobile
Home Sales, Inc., 186 S.W.3d 793, 797 (Mo.App. W.D.
2006).
The parties are not bound to arbitrate every
dispute that ever arises between them because they
entered into an agreement containing an arbitration
clause two decades ago. When construing an
arbitration clause, courts must ascertain the intent of
the parties and give effect to that intent. State ex rel.
Greitens v. Am. Tobacco Co., 509 S.W.3d 726, 741 (Mo.
banc 2017). The parties’ intent is presumably

App-50
manifested in the plain, ordinary, and usual meaning
of the contract’s terms. Id.
Even a “broad” arbitration provision only covers
disputes “arising out of” the contract to arbitrate.
Dunn Indus. Grp., Inc. v. City of Sugar Creek, 112
S.W.3d 421, 428 (Mo. banc 2003). The arbitration
clause as stated in the relocation agreement states as
follows:
8.10 Arbitration. Any controversy, dispute or
claim between or among any of the parties
hereto related to this Relocation Agreement,
including without limitation, any claim
arising out of, in connection with, or in
relation to the interpretation, performance or
breach of this Relocation Agreement shall be
settled by arbitration as set forth or as
otherwise provided in Section 25 of the
Amended Lease.
The arbitration clause found in the Lease states as
follows:
25. Arbitration. Any controversy, dispute or
claim between or among any of the parties
hereto (and/or any of those consenting hereto
pursuant to the Consents to Assignment
(other than City, County or SLMFC, which
may only bring an action or against which an
action may only be brought in United States
Federal District Court for the Eastern
District of Missouri, with the right to jury
waived)) to this Amended Lease, related to
this Amended Lease, including, without
limitation, any claim arising out of, in
connection with, or in relation to the

App-51
interpretation, performance or breach of this
Amended Lease (including any determination
of whether the “First Tier” or “First Class”
standard provided in Section 1.3 of Annex 1
to this Amended Lease has been met) shall be
settled by arbitration conducted before three
arbitrators in St. Louis, Missouri, in
accordance with the most applicable then
existing rules of the American Arbitration
Association (or its successor or in the absence
of a successor, an institution or organization
offering similar services), and judgment upon
any award rendered by the arbitrator may be
entered by any federal or state court having
jurisdiction thereof. Such arbitration shall be
the exclusive dispute resolution mechanism.
In the event the parties (and/or those
consenting hereto) are unable to agree on the
three arbitrators, the parties (and/or those
consenting hereto) shall select the three
arbitrators be striking alternatively (the first
to strike being chosen by a lot) from a list of
thirteen arbitrators designated by the
American Arbitration Association (or its
successor or in the absence of a successor, an
institution or organization offering similar
services); seven shall be retired judges of trial
or appellate courts resident in states other
than Missouri or California, selected from the
“Independent List” of retired judges (or its
then equivalent) and six shall be members of
the National Academy of Arbitrators ( or its
successor or in the absence of a successor, an
institution or organization having a similar

App-52
purpose) resident in states other than
Missouri or California. In the event of any
such arbitration, the prevailing party shall be
awarded its costs and reasonable attorney’s
fees as part of the award. Each of the parties
to the arbitration shall bear the costs of the
arbitration on such equitable basis as the
arbitrator of the matter shall determine.
Notwithstanding the foregoing, where a
dispute presents issues which are within the
exclusive jurisdiction of the National Labor
Relations Board, the decision of the National
Labor Relations Board (or any Court of
Appeals or Supreme Court enforcing or
otherwise reviewing the decision of the
National Labor Relations Board) shall be
final and binding. Provided, however, that
this shall not interfere with respect to dispute
resolution procedures identified in Section 33,
which shall be initially exhausted with
respect to the work assignment or
jurisdictional dispute procedures identified
therein.
Plainly, the arbitration provision in the
Relocation Agreement mandates arbitration only as to
disputes “related to [the] Relocation Agreement,” and
the arbitration provision in the Lease mandates
arbitration only as to disputes “related to [the]
Amended Lease.” Defendants argue that their
defenses to Plaintiffs’ claims require reference to the
Relocation Agreement and Lease, and therefore this
action is “related to” both. However, the terms of
neither the Relocation Agreement nor the Lease are in

App-53
dispute in this action, and the Court does not believe
that arbitration is mandated.
Defendants next argue that the recent case State
ex rel. Pinkerton v. Fahnestock, No. SC94822, 2017
Mo. LEXIS 487 (Mo. banc Oct. 31, 2017), requires that
the arbitrator, not the Court, decide whether a dispute
is arbitratable. However, Pinkerton is of no assistance
to Defendants. Pinkerton explained that “when
considering whether parties have intended to delegate
threshold questions of arbitrability to an arbitrator,
‘[c]ourts should not assume that the parties agreed to
arbitrate arbitrability unless there is clea[r] and
unmistakabl[e] evidence that they did so.’” Here, there
is no clear and unmistakable evidence in either
arbitration clause that the parties agreed to arbitrate
arbitrability.
THEREFORE, it is Ordered and Decreed that
Defendants Rams and E. Stanley Kroenke’s
Application to Compel Arbitration of All Counts is
DENIED.
SO ORDERED:
[handwritten: signature]
Christopher McGraugh, Judge
Dated: [handwritten: December 27, 2017]

App-54
Appendix H
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. art. VI, cl. 2
This Constitution, and the Laws of the United
States which shall be made in Pursuance thereof; and
all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.
9 U.S.C. §2
A written provision in any maritime transaction
or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or transaction,
or the refusal to perform the whole or any part thereof,
or an agreement in writing to submit to arbitration an
existing controversy arising out of such a contract,
transaction, or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.

